                                                    National Railroad Passenger Corporation
                                                    Office of Inspector General
                                                    10 G Street N.E.
                                                    Washington, DC 20002



.
         Amtrak Employee Suspended for Leaving Work Without Authorization
                               Case Number 09-172
                                  April 27, 2010

An anonymous source alleged that a Back Bay Station employee left the station on numerous
occasions to go to a local gym without the knowledge or authorization of management while on
company time. A comparison of employee payroll records and gym attendance records was
conducted and it was determined that the employee left work while on duty on 12 separate
occasions to go to the gym. The employee waived a Formal Investigation and was assessed a
twenty-day suspension (held in abeyance) and was required to pay $298.56 in restitution to
Amtrak for time paid but not worked.
